Supreme Court, U.S.
FILED

OCT 1 5 2020
OFFICE OF THE CLERK

WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-5841

Gerard Nguedl

v.

Federal Reserve Bank of New York
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please ,check the appropriate boxes:

a Please enter my appearance as Counsel of Record for all resrpondents,.
El There are mtiltiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Ear of the Supreme Court of the United States.

el I am not presently a member of the liar of this Court. Should a response be requested, the
will he filed by
Signature
pate:

October 15, 2020

(Type or print) Name

Michael M. Brennan
Mr.

Firm

0 Ms. 0 Mrs. 0 Miss

Federal Reserve Bank of New York

Add,„,

33 Liberty Street

City&State
mom

New York, NY

(212) 720-8235

24,10045
Email michael.brennan(?ny.frb.org

A COPY OF THIS FORM, MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IP PRO SE. PLEASE INDICATE BELOW THE NAME(S) OP TEE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Gerard Nguedi

